TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Federal Guidelines Do Not Prohibit the
                     Awarding of Contracts to Contractors
                        With Delinquent Tax Liabilities



                                      September 28, 2010

                              Reference Number: 2010-30-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FEDERAL GUIDELINES DO NOT                               taxes, it can result in disciplinary action, and
PROHIBIT THE AWARDING OF                                even loss of employment.
CONTRACTS TO CONTRACTORS WITH                           Guidelines do not require IRS employees to
DELINQUENT TAX LIABILITIES                              complete tax checks or financial capability
                                                        surveys at the time a contract is up for renewal.
                                                        Our analyses showed the IRS renewed the
Highlights                                              contracts for 17 contractors, of which 6 had
                                                        delinquent tax liabilities that totaled over
Final Report issued on September 28,                    $943,000 at the time of the original award. As of
2010                                                    March 2009, the delinquent tax liabilities
                                                        increased by more than 500 percent to
Highlights of Reference Number: 2010-30-120             approximately $4.9 million.
to the Internal Revenue Service Deputy
Commissioner for Operations Support.                    WHAT TIGTA RECOMMENDED
                                                        TIGTA recommended that the IRS: 1) convene
IMPACT ON TAXPAYERS
                                                        its senior executives to discuss its response to
President Obama and Congress view increased             the Administration’s January 20, 2010, request
enforcement on tax evasion as a way to reduce           to evaluate IRS contract award processes and
the tax gap. However, all taxpayers must be             make process improvement recommendations
treated equitably. Because Federal guidelines           to ensure that contractors with serious tax
allow the Internal Revenue Service (IRS) to             delinquencies do not receive additional work
conduct business with contractors that do not           from Federal agencies; 2) ensure all required tax
comply with the Nation’s tax laws, it conveys to        checks and financial capability surveys are
the American taxpayers an adverse message               performed before contracts are awarded; and
regarding the fairness of the system and the            3) establish procedures requiring the Office of
IRS’ ability to administer tax laws fairly.             Procurement Policy to complete an annual tax
                                                        check for all IRS contractors and to notify the
WHY TIGTA DID THE AUDIT                                 Director, Collection Policy, when subsequent tax
This audit was initiated because Federal                delinquencies occur after the initial contract is
Government contractors receive, on an annual            awarded.
basis, an estimated $377.5 billion in Federal           IRS management agreed with the
payments. Our overall objective was to                  recommendations to evaluate the contract
determine whether businesses contracting to             award process and to ensure tax checks and
provide services to the IRS are compliant with          financial capability surveys are done before
Federal tax laws, including filing and paying           contracts are awarded. In addition, the IRS
Federal income taxes and withholding and                plans to include tax check responsibilities in
paying employment and withholding taxes.                future employee training workshops.
WHAT TIGTA FOUND                                        IRS management disagreed with the
                                                        recommendation to establish procedures to
IRS employees awarded contracts without
                                                        conduct annual tax checks on all contractors to
completing tax checks and financial capability
                                                        identify subsequent tax delinquencies. TIGTA
surveys. From a review of 135 contractors with
                                                        continues to believe that this recommendation
an award equal to at least $250,000, TIGTA
                                                        would help the IRS identify contractors that have
identified 20 (15 percent) with delinquent tax
                                                        a serious tax liability and possibly prevent them
liabilities totaling $5.2 million. Tax checks were
                                                        from receiving new contracts from the IRS.
not completed for seven of the 20 contractors.
TIGTA believes IRS contractors should be held
accountable to the same tax compliance
requirements as IRS employees. If IRS
employees fail to file accurate and timely income
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Federal Guidelines Do Not Prohibit the
                             Awarding of Contracts to Contractors With Delinquent Tax Liabilities
                             (Audit # 200830051)

 This report presents the results of our review to determine whether businesses contracting to
 provide services to the Internal Revenue Service are compliant with Federal tax laws, including
 filing and paying Federal income taxes and withholding and paying employment and
 withholding taxes. This audit was conducted as part of our Fiscal Year 2010 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                        Federal Guidelines Do Not Prohibit the Awarding of Contracts
                               to Contractors With Delinquent Tax Liabilities




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Additional Oversight and Internal Controls Need to
          Be Strengthened at the Time Contracts Are Awarded to
          Contractors With Delinquent Tax Liabilities ........................................... ….Page 3
                    Recommendation 1:.......................................................... Page 6

                    Recommendation 2:.......................................................... Page 7

          Additional Actions Are Needed to Ensure Contractors
          Are Compliant at the Time Contracts Are Renewed ................................... Page 7
                    Recommendation 3:.......................................................... Page 9

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Glossary of Terms ................................................................ Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
                    Federal Guidelines Do Not Prohibit the Awarding of Contracts
                           to Contractors With Delinquent Tax Liabilities




                                            Background

Each year, Federal Government contractors receive an estimated $377.5 billion in Federal
payments. In February 2004, the Government Accountability Office reported that approximately
27,000 Department of Defense contractors owed nearly $3 billion in Federal taxes.1 In
June 2005, an audit of 33,000 civilian agency contractors identified $3.3 billion in delinquent
Federal taxes. Finally, in March 2006, the Government Accountability Office found that
3,800 General Services Administration contractors owed about $1.4 billion in Federal taxes.2
On January 15, 2009, legislation3 was proposed by
Representative Brad Ellsworth (D-IN) that “prohibits any person
who has a seriously delinquent tax debt4 from obtaining a Federal
Government contract or grant.” This bill requires Federal agency
heads to require prospective recipients of a contract or grant in
excess of an amount equal to the simplified acquisition threshold5
to: (1) certify that they do not have such a tax debt and
(2) authorize the Secretary of the Department of the Treasury to
disclose information describing whether they have such a tax debt.
Additionally, in the Fiscal Year 2010 budget, the Department of the Treasury proposed
2 changes to debt collection procedures that will increase the amount of delinquent taxes
collected from Federal contractors by an estimated $2 billion over 10 years. Specifically, the
changes propose to:
    1) Modify administrative requirements so the Department of the Treasury can levy a
       payment much sooner in the debt collection process.
    2) Increase the amount of tax debt the Department of the Treasury can collect from a
       payment made to Federal contractors.
On January 20, 2010, President Obama issued a Presidential Memorandum for the Heads of
Executive Departments and Agencies directing the Commissioner of the Internal Revenue
Service (IRS) to conduct a review of the annual self-certifications of taxes owed for those



1
  Some Department of Defense Contractors Abuse the Federal Tax System With Little Consequence (GAO-04-414T,
dated February 2004).
2
  Thousand of GSA Contractors Abuse the Federal Tax System (GAO-06-492T, dated March 2006).
3
  Contracting and Tax Accountability Act of 2009, H.R. 572, 111th Congress (2009).
4
  The legislation defines “seriously delinquent tax debt” as an outstanding tax debt for which a Notice of Federal
Tax Lien has been filed in public records.
5
  See Appendix IV for a glossary of terms.
                                                                                                          Page 1
                       Federal Guidelines Do Not Prohibit the Awarding of Contracts
                              to Contractors With Delinquent Tax Liabilities



contractors bidding for Federal contracts.6 The Commissioner was to provide a report by
April 20, 2010,7 on the overall accuracy of the contractors’ certifications. Also, the President
directed the Department of the Treasury and the Office of Management and Budget to evaluate
agencies’ contract award processes and make recommendations to ensure that contractors with
serious tax delinquencies do not receive new work from Federal agencies. President Obama
called the steps “basic common sense,” but said they alone will not eliminate all instances of
contractor abuse. He stated “it is simply wrong for companies to take taxpayer dollars and not be
taxpayers themselves.” He further stated “we need to insist on the same sense of responsibility
in Washington that so many of you strive to uphold in your own lives, in your own families, and
in your own businesses.”
This review was performed in the Agency-Wide Shared Services Office of Procurement in
Oxon Hill, Maryland, during the period January 2009 through July 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
    The self-certifications are maintained on the Online Representations and Certifications Application System.
7
    As of August 4, 2010, we have not received a copy of the requested report.
                                                                                                              Page 2
                   Federal Guidelines Do Not Prohibit the Awarding of Contracts
                          to Contractors With Delinquent Tax Liabilities




                                    Results of Review

Additional Oversight and Internal Controls Need to Be Strengthened
at the Time Contracts Are Awarded to Contractors With Delinquent
Tax Liabilities
Our review of IRS Procurement Request Transaction System records of 135 active contractors
(that received at least 1 contract award greater than or equal to $250,000 from October 2006
through December 2008) identified 20 (15 percent) with delinquent tax liabilities and penalties
totaling approximately $5.2 million.8 Six of these contractors had delinquent tax liabilities
totaling approximately $943,000 when they were awarded the contracts. In January 2008,
Agency-Wide Shared Services Policy and Procedures Memorandum9 established standard
procedures for IRS contracting officers to apply when determining the financial health of
prospective contractors who owe delinquent taxes. Specifically:
    •   Contracting officers are required to request the Director, Office of Revenue Reporting, to
        complete a tax check to determine the existence of tax indebtedness. The information is
        returned to the contracting officer within 2 business days and forwarded to the
        Director, Office of Procurement Policy.
    •   The Director, Office of Procurement Policy, conducts a financial capability survey, which
        includes reviewing Dun and Bradstreet financial reports.
Contracts were awarded without the completion of tax checks and financial
capability surveys
For 7 (39 percent) of the 20 contractors,10 IRS contracting officers did not request the required
tax checks before awarding the contracts. As a result of our discussions with IRS personnel, we
determined that:
    •   Five contractors were awarded contracts, but contract files did not include any
        documentation that tax checks were completed before the contracts were awarded. The



8
  We analyzed the tax accounts for the 20 contractors from February 25 through March 11, 2009, to identify the
$5.2 million in current tax liabilities and penalties.
9
  Agency-Wide Shared Services Policy and Procedures Memorandum No. 9.1 (dated January 1, 2008) provides that
IRS employees will complete a tax check on prospective contractors for all IRS solicitations over $250,000.
10
   The percentage calculation is based on 18 because 2 contractors were Federal agencies. Tax checks are not
required when the IRS enters into a contract with another Federal agency.
                                                                                                       Page 3
                  Federal Guidelines Do Not Prohibit the Awarding of Contracts
                         to Contractors With Delinquent Tax Liabilities



       IRS could not provide an explanation as to why these checks were not completed, but
       took immediate actions to complete the checks after we discussed our results.
   •   One contractor, for which a financial capability survey was performed, was awarded the
       contract without documentation of a tax check in the contract file.
   •   One contractor’s contract file had documentation stating that the IRS was waiving the
       required tax check because it was relying on a prior determination made by the General
       Services Administration.
Our review of the data included in the tax checks showed only limited information was provided
to help IRS employees evaluate the significance of the delinquent tax liabilities. For example,
the tax checks did not indicate the types of taxes outstanding (i.e., corporate or payroll), the ages
of the tax debts, or if the contractors had taken steps to establish installment agreements to repay
the taxes. We performed further research of the contractors’ tax accounts to determine the
specific types of taxes that were outstanding. Figure 1 shows a breakdown of the types and
percentages of taxes and penalties owed for the 20 contractors that had delinquent tax liabilities
at the time of our review.
             Figure 1: Delinquent Tax Liabilities Owed by 20 Contractors


                                                                    $150,696; 3%




                                  $2,543,197; 49%
                                                             $2,455,324; 48%




                                      Corporate Taxes   Penalties    Payroll Taxes



           Source: Our analysis of contractors’ delinquent tax liabilities based on IRS data.

Federal laws, statutes, and the Federal Acquisition Regulation govern the roles and
responsibilities of IRS procurement officials. Their responsibility in awarding contracts is the
same as that of any other Federal agency procurement office. We were advised by Office of
Procurement Policy officials that they are required to complete the tax checks. However,
although tax indebtedness may indicate serious issues that could jeopardize contract
performance, Federal guidelines prevent the IRS from using this information to preclude a
contractor from obtaining a contract. The financial capability survey provides additional

                                                                                                Page 4
                    Federal Guidelines Do Not Prohibit the Awarding of Contracts
                           to Contractors With Delinquent Tax Liabilities



information about a contractor’s overall financial position and the ability to carry out the terms
of the contract even with the contractor’s delinquent tax liability. However, our results showed
that Office of Procurement Policy employees did not complete the financial capability survey for
5 (25 percent) of the 20 contractors. All five of these contractors had delinquent tax liabilities at
the time the contracts were awarded.
When a contract is awarded to a contractor that has a                Contractors received
delinquent tax liability, the Director, Collection Policy, is       $541 million in revenue
notified that a contract was issued to a contractor with a        from the IRS, but had not
                                                                   established installment
Federal tax debt. The Director, Collection Policy,                   agreements to repay
determines whether the information should be referred to a         outstanding delinquent
Revenue Officer to conduct a courtesy investigation. The                tax liabilities.
purpose of the investigation is to resolve the outstanding
delinquencies (i.e., establish an installment agreement to
repay the outstanding taxes) and identify sources of income available for the IRS to levy. Our
results showed that none of the 20 contractors had established installment agreements.
Furthermore, as of March 2009, the 7 contractors that did not have completed tax checks
received payments from the IRS that totaled approximately $541 million.
The completion of these investigations is critical because on April 14, 2008, the House of
Representatives passed the Contracting and Tax Accountability Act of 2008.11 The Act was not
signed into law, but would have prevented firms with “seriously delinquent tax debts” from
contracting with the Federal Government. The legislation defines “seriously delinquent” as any
tax debt for which a Notice of Federal Tax Lien has been filed and does not apply to contracts
below the simplified acquisition threshold of $100,000. Our review found that none of the
contractors had a lien filed on their tax accounts. However, when the IRS does not complete the
required tax checks and financial capability surveys, it is not clear how the IRS can ensure it is
effectively evaluating the risk that contractors may not be able to fulfill their contractual
obligations.
In addition, contractors are taxpayers themselves, and they should be held accountable to the
same tax compliance requirements as IRS employees and new requirements for paid preparers.
Specifically:
     •   Congress implemented Section 1203(b)(8) of the IRS Restructuring and Reform Act
         of 199812 to ensure that IRS employees are held to a high standard with respect to the tax
         legislation and regulations they are required to administer and enforce. Supplemental
         internal IRS documents state that IRS employees must also pay Federal, State, and local


11
  Bill H.R. 4881 (2008).
12
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                              Page 5
                      Federal Guidelines Do Not Prohibit the Awarding of Contracts
                             to Contractors With Delinquent Tax Liabilities



           income taxes accurately and do so on time. Failure to meet these tax obligations can
           result in disciplinary action, and even loss of employment.
       •   On January 4, 2010, the IRS initiated its Paid Preparer Strategy, which requires all
           preparers to register with the IRS. As part of this registration process, preparers will have
           to disclose whether they are compliant with their Federal taxes. By Calendar Year 2013,
           the IRS will conduct automated tax checks. If the IRS determines that certain preparers
           are untruthful, they will be unable to lawfully prepare Federal tax returns for a fee.
Although IRS contractors are not considered employees, they are conducting business and doing
work on behalf of the agency whose mission is to ensure taxpayers meet their tax
responsibilities. As a result, we believe IRS contractors should be held to the same ethical
standards as IRS employees and paid preparers concerning their compliance with the Nation’s
tax laws. Lack of tax compliance by IRS employees has an adverse impact on voluntary
compliance and also the perception that the IRS is a fair and ethical Government agency.
President Obama and Congress view increased enforcement on tax evasion as a way to reduce
the tax gap. The Department of the Treasury’s Office of Tax Policy issued A Comprehensive
Strategy for Reducing the Tax Gap,13 stating its commitment to reduce the tax gap through
enforcement activities. In its Fiscal Year 2008 Annual Report, the IRS’ Oversight Board
reported that the tax gap was a serious systemic weakness that must be addressed and is a real
cost to taxpayers. The Annual Report stated that the tax gap, which is unacceptably high,
deprives the Nation and its people of $290 billion in tax revenue each year that should be
collected. It further cited, “…. if the tax gap was zero, the Federal Government would have an
additional $290 billion each year that it could either spend on programs or refund to taxpayers.”
Recommendations
Recommendation 1: The Deputy Commissioner for Operations Support should convene
senior IRS executives to discuss the IRS’ response to the Administration’s January 20, 2010,
request to evaluate its contract award processes and make process improvement
recommendations to ensure that contractors with serious tax delinquencies do not receive
additional work from Federal agencies.
           Management’s Response: IRS management agreed with this recommendation.
           They will initiate an internal review and will work with the Office of Federal
           Procurement Policy within the Office of Management and Budget to gain a better
           understanding of the role contracting officers can and should play in conducting tax
           checks on contractors doing business with the Federal Government under the Federal
           Acquisition Regulations. The IRS will engage the Office of Federal Procurement Policy
           to determine what authorities the Federal Acquisition Regulations may grant or what

13
     Office of Tax Policy HP-111(September 26, 2006).
                                                                                                 Page 6
                  Federal Guidelines Do Not Prohibit the Awarding of Contracts
                         to Contractors With Delinquent Tax Liabilities



       limitations it may impose and how those authorities and limitations may affect the
       awarding of contracts to contractors with seriously delinquent tax liabilities.
Recommendation 2: The Chief, Agency-Wide Shared Services, should ensure all required
tax checks and financial capability surveys are performed before contracts are awarded.
               Management’s Response: IRS management agreed with this
               recommendation. Policy and Procedure 9.1, “Tax Checks on Prospective
               Contractors” establishes procedures for Contracting Officers to obtain and use
               information concerning the Federal tax indebtedness of prospective contractors
               and subcontractors in a responsibility determination, in accordance with Federal
               Acquisition Regulation 9.103, in all IRS solicitations over $250,000. One tool
               that helps to ensure that the required documentation is included in all contract
               files is the mandatory use of the applicable contract file checklists, in accordance
               with Policy and Procedure 4.1, :File Content Checklists.” “Completion of Tax
               Check” is Item No 19.d of Section III of the Pre-Award Documents checklist.
               The tax check record is just one item considered when the Contracting Officer
               makes a responsibility determination prior to contract award, in accordance with
               Federal Acquisition Regulations subpart 9.1. The Office of Procurement Policy
               has conducted “Lessons Learned” training throughout Procurement this year
               based on quality assurance review findings and internal contract file auditing
               efforts, which included an emphasis on the use of the required contract file
               checklists. Two separate lessons learned training sessions were also conducted
               for managers who review contract files to emphasize key areas to review for
               compliance. Future contract file review workshops will include tax check
               responsibilities.
Additional Actions Are Needed to Ensure Contractors Are Compliant
at the Time Contracts Are Renewed
Guidelines do not require IRS employees to complete tax checks or financial capability surveys
at the time a contract is being considered for renewal.
Therefore, an annual tax check is not performed because it can         Six contractors’ delinquent
only be used in relation to a responsibility determination. As a            tax liabilities have
result, contractors who may have become delinquent or                    increased 500 percent to
noncompliant since the initial award date can continue to               $4.9 million since the time
receive Federal payments without being subject to additional tax           of the original award.
checks. Our analyses of procurement records showed the IRS
renewed contracts for 17 contractors, of which 6 had delinquent
tax liabilities totaling over $943,000 at the time of the original award. As of March 2009, these
same contractors’ delinquent tax liabilities have increased by more than
500 percent to approximately $4.9 million. The remaining 11 contractors did not have

                                                                                             Page 7
                     Federal Guidelines Do Not Prohibit the Awarding of Contracts
                            to Contractors With Delinquent Tax Liabilities



delinquent tax liabilities at the time of the awards, but their delinquent tax liabilities
subsequently increased to $286,877. Figure 2 shows the number and the range of dollar increase
in delinquent tax liabilities for the 17 contractors whose contracts were renewed by the IRS.
      Figure 2: Increase in Delinquent Tax Liabilities Owed by 17 Contractors14

               Number of Contractors                           Dollar Increase in Delinquent Tax Liabilities
                            7                                                      $1 to $2,000
                            3                                                  $2,001 to $20,000
                            3                                                 $20,001 to $100,000
                            **1 **                                                      **1**
                            **1**                                                       **1**
Source: Our analyses of delinquent tax liabilities of contractors offered contract renewals.

It is the Federal Government’s policy to award contracts only to responsible prospective
contractors.15 In order to determine the responsibility of a prospective contractor, the IRS
contracting officer must examine the contractor’s financial capability, production capabilities,
performance record, integrity, experience, organization, accounting practices, operational
controls, and technical skills. However, neither the Federal Acquisition Regulation nor the IRS
has established guidelines that require the completion of a tax check at the time the decision is
made to exercise an option to renew a contract. Furthermore, annual tax checks are not required
for contractors that are awarded multiyear contracts.
If a tax compliance check was required prior to renewing a contract, it would provide contracting
officers with updated information to evaluate the contractor’s financial position and the ability to
carry out the terms of the contract. In addition, the sharing of this information with the
Director, Collection Policy, will provide a source of income the IRS has available to levy. We
are currently conducting a separate review to evaluate if the IRS is effectively using the
Federal Payment Levy Program16 to collect payments from contractors with delinquent tax
liabilities. If the IRS continues to conduct business with contractors that do not comply with the
Nation’s tax laws, an adverse message will be sent to the American taxpayers as to the fairness
of the tax administration system.


14
   Eleven of these contractors either did not have tax liabilities at the time the contracts were awarded or their tax
liabilities could not be determined because tax checks were not completed. The number of contractors in the table
does not equal 17 because we ****1*************************.
15
   Federal Acquisition Regulation, 48 C.F.R. ch. 1 (2009). See Subpart 9.103.
16
   IRS Contractors Whose Accounts Are Blocked From the Federal Payment Levy Program (Audit
Number 201030029). The Federal Payment Levy Program is an automated program that levies up to 15 percent of
payments disbursed to taxpayers with delinquent Federal taxes.
                                                                                                               Page 8
                 Federal Guidelines Do Not Prohibit the Awarding of Contracts
                        to Contractors With Delinquent Tax Liabilities



Recommendation
Recommendation 3: The Chief, Agency-Wide Shared Services, should establish procedures
requiring the Office of Procurement Policy to complete an annual tax check for all IRS
contractors. In addition, the Director, Collection Policy, should be notified when subsequent tax
delinquencies occur after the initial contract is awarded.
       Management’s Response: IRS management disagreed with this recommendation.
       Agency policies implement Federal laws and regulations. As there is no Federal law or
       regulation that authorizes a Contracting officer to complete an annual responsibility
       determination, there is no justification to obtain an annual tax check. The tax check
       record is only used by the Contracting Officer to assist in making a determination
       regarding contractors’ responsibility issues prior to the initial contract award, in
       accordance with Federal Acquisition Regulations subpart 9.1. A tax check is cursory,
       unverified tax account information that is not actionable as the contractor has had no due
       process in regard to the tax check information and tax liability has not been finally
       determined.
       Office of Audit Comment: We continue to believe the IRS should establish
       procedures requiring a completed annual tax check for all contractors and the Director,
       Collection Policy, should be notified when subsequent delinquencies occur after the
       initial award. Our review showed that several contractors with multiple-year contracts
       continued to increase their outstanding tax liabilities and obligations to the IRS. A
       change in procedures requiring annual tax checks would enable the IRS to determine if a
       contractor has become seriously delinquent in their tax liabilities. Contractors that have
       become seriously delinquent would be at risk of not having the ability to carry out the
       terms of their contract.




                                                                                           Page 9
                    Federal Guidelines Do Not Prohibit the Awarding of Contracts
                           to Contractors With Delinquent Tax Liabilities



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether businesses contracting to provide
services to the IRS are compliant with Federal tax laws, including filing and paying Federal
income taxes and withholding and paying employment and withholding taxes. To accomplish
our objective, we:
I.      Determined whether contractors with delinquent tax liabilities are prohibited by law from
        receiving contracts from the Federal Government.
        A. Identified regulations governing the awarding of IRS contracts by reviewing the
           following documentation:
             1. IRS directives.
             2. Internal Revenue Manuals.
             3. Federal Acquisition Regulation.17
             4. Department of the Treasury Acquisition Regulations.
II.     Interviewed personnel within the Office of Procurement Policy to determine which IRS
        management information system contained contractor data and other relevant information
        regarding current active contracts.
III.    Researched the IRS Procurement Request Transaction System to identify contractors with
        active contracts and awards greater than $250,000.
        A. Selected a judgmental sample of 20 contractors from a population of 135 contractors18
           with contracts greater than or equal to $250,000 from October 2006 to
           December 2008. We only selected contractors with delinquent tax liabilities and used
           judgmental sampling because we did not plan to project our results.
        B. Determined if the required tax checks and financial capability surveys were
           completed.
        C. Identified contracts with a renewal options.


17
  See Appendix IV for a glossary of terms.
18
  Our analyses identified the Treasury Inspector General for Tax Administration as part of the population of
135 contractors that have contracts with the IRS. The contract was related to our agency providing
Defense Contract Audit Agency Services.
                                                                                                          Page 10
                 Federal Guidelines Do Not Prohibit the Awarding of Contracts
                        to Contractors With Delinquent Tax Liabilities



IV.    Used the Integrated Data Retrieval System to research the tax accounts of sampled
       contractors.
       A. Identified contractors with delinquent tax liabilities and tax liens.
       B. Determined if contractors established installment agreements to repay unpaid taxes.
V.     Discussed the results of our test with IRS personnel to determine why the conditions
       identified existed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies and procedures for
awarding contracts to contractors who have tax indebtedness. We evaluated these controls by
researching and evaluating policies and procedures, analyzing procurement folders, and
reviewing the tax accounts for 20 IRS contractors.




                                                                                        Page 11
                Federal Guidelines Do Not Prohibit the Awarding of Contracts
                       to Contractors With Delinquent Tax Liabilities



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank W. Jones, Director
Marybeth Schumann, Director
L. Jeff Anderson, Audit Manager
Bernard F. Kelly, Audit Manager
Earl Burney, Acting Audit Manager
Paul R. Baker, Lead Auditor
Andrea Barnes, Senior Auditor
Lynn M. Ross, Senior Auditor




                                                                                      Page 12
               Federal Guidelines Do Not Prohibit the Awarding of Contracts
                      to Contractors With Delinquent Tax Liabilities



                                                                    Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Service and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection SE:S:C
Director, Procurement OS:A:P
Deputy Director, Procurement OS:A:P
Director, Collection Policy SE:S:C:CP
Director, Revenue Oversight & Support Reporting Office OS:CFO:R:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Service and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                          Page 13
                  Federal Guidelines Do Not Prohibit the Awarding of Contracts
                         to Contractors With Delinquent Tax Liabilities



                                                                                    Appendix IV

                                 Glossary of Terms

Corporate Taxes – Corporate tax refers to a tax imposed on entities that are taxed at the entity
level in a particular jurisdiction. Such taxes may include income or other taxes. The tax
generally is imposed on net taxable income.
Federal Acquisition Regulation – A regulation established to codify uniform policies for
acquisition of supplies and services by executive agencies.
Financial Capability Surveys – The Federal Acquisition Regulation 9.104-1(a) describes that a
contracting officer will evaluate a prospective contractor to determine that it has adequate
financial resources to perform the contract, or the ability to obtain them.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with a taxpayer’s account records.
Levy – A levy generically refers to seizure of property to collect a debt. For tax debts, it is the
legal process by which the IRS orders a third party to turn over property in its possession
(e.g., the Federal Government payment) that belongs to the tax debtor.
Notice of Federal Tax Lien – A lien is a legal claim to the property of the taxpayer as security
for a tax debt. The Federal tax lien arises when the liability is assessed, Notice and Demand for
Payment has been sent, and the taxpayer neglects or refuses to fully pay the debt after 10 days
from the issuance of the Notice and Demand. After that time, the IRS may file a Notice of
Federal Tax Lien in the public records. The purpose of filing the Notice of Federal Tax Lien is
to protect the Government’s right of priority against certain third-party creditors. It puts the
public on notice that a Federal tax lien exists and that the taxpayer owes the IRS money.
Generally, the Federal tax lien will continue until the liability is satisfied or becomes
unenforceable by lapse of time (collection statute expires) or until a bond is accepted in the
amount of the liability.
Payroll Taxes – Amounts employers withhold from employee’s wages for Federal income taxes,
Social Security, and Medicare, as well as the employer’s mandatory matching contributions for
Social Security and Medicare taxes.
Responsibility Determination – Signifies that the Government has judged the contractor to
have the means and ability to complete the contract in question.
Revenue Officer – IRS employees who attempt to contact taxpayers and resolve collection
matters that have not been resolved through notices sent by the IRS.


                                                                                             Page 14
                 Federal Guidelines Do Not Prohibit the Awarding of Contracts
                        to Contractors With Delinquent Tax Liabilities



Simplified Acquisition Threshold – Thresholds are used to identify contracts where
procurement officials do not have to apply certain requirements required by the Federal
Acquisition Regulation. For example, this threshold is established at $100,000.
Tax Check – Procedures for contracting officers to obtain and use information concerning the
Federal tax indebtedness of prospective contractors and subcontractors in a responsibility
determination.
Tax Gap – The difference between the annual Federal tax obligation and the amount of tax the
taxpayer pays voluntarily and timely. The tax gap consists of those who do not file their returns,
those who do not make their payments on time, and those who file returns but underreport their
income or over report their expenses.




                                                                                          Page 15
    Federal Guidelines Do Not Prohibit the Awarding of Contracts
           to Contractors With Delinquent Tax Liabilities



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 16
Federal Guidelines Do Not Prohibit the Awarding of Contracts
       to Contractors With Delinquent Tax Liabilities




                                                        Page 17
Federal Guidelines Do Not Prohibit the Awarding of Contracts
       to Contractors With Delinquent Tax Liabilities




                                                        Page 18
Federal Guidelines Do Not Prohibit the Awarding of Contracts
       to Contractors With Delinquent Tax Liabilities




                                                        Page 19
